September 29, 2009

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Information Technology’s Preferred
         Portfolio Partnering Program (Report Number CA-AR-09-007)

This report presents the results of our audit of the U.S. Postal Service Information
Technology’s (IT) Preferred Portfolio Partnering (PPP) Program (Project Number
09YG002CA000). This audit addresses operational risk, and was performed based on
a Value Proposition Agreement dated January 27, 2009, between the U.S. Postal
Service’s Vice President, Supply Management, and the Office of Inspector General
(OIG). The objectives of this audit were to review the task order pricing process to
determine if the price and cost analysis the Postal Service performed resulted in lower
prices; and to assess how the program pricing process compares to the IT services
industry best practices. See Appendix A for additional information about this audit.

Conclusion

The price and cost analysis Postal Service personnel performed usually did not result in
negotiated price reductions of Accenture LLC’s (Accenture)1 proposals. Additionally,
Supply Management personnel did not always follow the recommendations of a third
party contractor to reduce task order amounts or reject them in full. Further, the PPP
program pricing process does not conform to current best practices for pricing IT service
contracts and task orders.

However, Supply Management personnel have recently begun implementing IT service
industry best practices by making plans to award multiple indefinite delivery indefinite
quantity (IDIQ) contracts for IT services. This should provide for price competition when
issuing task orders and result in better pricing and better quality services. The Postal
Service could further improve pricing controls by increasing their requests to the OIG for
Defense Contract Audit Agency (DCAA) audits of IT service providers’ systems and
proposals.




1
 The Postal Service has four PPP ordering agreements with Accenture established to assist the Postal Service in
delivering business solutions, and maximize the value obtained from its IT investment.
Information Technology’s Preferred                                                                   CA-AR-09-007
 Portfolio Partnering Program


Price and Cost Analysis for PPP Task Orders

We reviewed 192 task order proposals totaling approximately $110 million, and found
the Postal Service’s price and cost analysis usually did not result in lower prices.
Specifically, the Postal Service negotiated down the price of 21 out of 192 (11 percent)
task orders reviewed. These negotiated savings totaled approximately $3.5 million.
Supply Management and IT program office personnel usually performed a level of effort
analysis on each proposal.2 However, the proposals were not negotiated down
consistently because Accenture was the only supplier providing a proposal and Supply
Management personnel stated they had no leverage in negotiations.

Additionally, a third party contractor reviewed nine of the task order proposals on behalf
of the Postal Service, and recommended revised target prices for seven of them.
However, the Postal Service did not fully utilize these target prices and did not fully
document the rationale for its decisions. As a result, the Postal Service contractually
committed to approximately $11.8 million more than the contractor’s recommended
target prices. The contractor’s recommendations were not consistently followed
because the IT program office usually values the speed of delivery over price.

Because the Postal Service personnel issued task orders without price competition,
there is reduced assurance that the proposals contained fair and equitable prices. See
Appendix B for our detailed analysis of this topic.

Best Practices for Pricing IT Service Contracts and Task Orders

The PPP program pricing process does not conform to current best practices for pricing
IT service contracts and task orders. When it was first developed, speed of delivery
was an important factor in providing functional enterprise-wide solutions with fewer
suppliers. However, the goals and objectives of the program have evolved. With the
current economic environment, best value through competition has become more
important to the Postal Service. Supply Management has recognized this and is
developing an approach that uses task order competition among multiple IDIQ
contractors. Because there is currently no requirement for competition among
suppliers, the PPP program has been using the same suppliers without competition for
over 10 years.

NGI-Solution’s Report on Best Practices for Pricing IT Services Contracts/Task Orders
(see Appendix C) concluded that, overwhelmingly, both government and industry
believe a competitive environment at the task order level will result in better pricing
along with better quality services. IT industry best practices include competition at the
task order level through use of multiple award IDIQ contracts. Without competition at
the task order level, the belief is that agencies are paying higher prices and getting
inferior performance for work under task orders issued without competition. Best


2
  The labor hour rates used in the proposals were established using competition at the origination of the PPP
program. The Postal Service has continued to negotiate the rates during the life of the program. The task order
proposal negotiations involve reviewing the level of effort required to complete the task.

                                                         2
Information Technology’s Preferred                                                                      CA-AR-09-007
 Portfolio Partnering Program

practices do provide for exceptions to competition for task orders. The report details
several recommendations for enhancing the IT services acquisition process.

The Postal Service is in the process of implementing best practices. Specifically, they
are planning to award multiple IDIQ contracts under the Enterprise Technical Service
program. This should provide for increased competition at the task order level.

According to the Postal Service’s Supplying Principles and Practices (SP&Ps) dated
May 1, 2006, updated through August 27, 2008, the agency should make competitive
purchases based on adequate competition whenever feasible.3

Use of DCAA Audits

The Postal Service has not been using DCAA to audit IT service providers’ systems and
proposals. For example, the agency has not reviewed Accenture’s estimating system to
determine the adequacy of its internal controls. DCAA’s audits help provide assurance
that contractors provide supplies and services to the Postal Service at fair and
reasonable prices. We discussed DCAA audit services with the IT Category
Management Center Manager and the CO to make them aware of the services we can
elicit from DCAA. They were not fully aware of all of the services that DCAA can
provide and were concerned that the use of the services will affect the timeliness of
contractual actions. With the support of Postal Service officials, we requested that
DCAA audit Accenture’s estimating system. The audit is scheduled for completion by
October 15, 2009, with a final report to be issued no later than October 31, 2009.

We recommend the Vice President, Supply Management; direct the Information
Technology Category Management Center Manager to:

1. Require documented justification from IT program office personnel when they are
   not going to follow contractor recommendations regarding the pricing of task order
   proposals.

2. Implement industry best practices by moving forward with the award of multiple
   indefinite delivery indefinite quantity contracts for IT services that, unless otherwise
   justified, will provide for competition at the task order level.

3. Establish and implement policies and procedures requiring documented justification
   when task orders are not competed.

4. Consider additional best practice recommendations documented in NGI-Solution’s
   Report on Best Practices for Pricing IT Service Contracts/Task Orders.



3
  Adequate competition means soliciting a sufficient number of the best qualified suppliers to ensure the required
quality and quantity of goods and services are obtained when needed and the price is fair and reasonable.
Competition allows the purchase team to compare the relative value of proposals and prices to determine the best
value for the Postal Service. It is the Contracting Officer’s (CO) responsibility to demonstrate that sound business
judgment was applied to the overall purchase project.

                                                           3
Information Technology’s Preferred                                           CA-AR-09-007
 Portfolio Partnering Program

5. Emphasize the benefits, and encourage the use of DCAA audits of IT service
   providers’ systems and proposals, as appropriate.

Management’s Comments

Management agreed with the findings and recommendations. Management noted that,
contrary to the draft report, the Postal Service paid EDS approximately $9.7 million
under the PPP program in fiscal year (FY) 2008. With regard to recommendation 2,
management stated they completed corrective action in mid-August when they awarded
the Enterprise Technology Services contracts to four suppliers. In addition, with regard
to recommendation 5, management requested that the OIG draft a communication to
educate Supply Management staff on use of the DCAA’s services. See Appendix D for
management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.
Based on documentation Supply Management personnel provided, the OIG changed
the report to reflect PPP program payments made to EDS in FY 2008. Based on
management’s action taken with regard to recommendation 2, the OIG can close the
recommendation upon receipt of award documentation for the Enterprise Technology
Services contracts. In addition, the OIG will be happy to assist the Supply Management
Infrastructure staff in further educating Supply Management personnel on the benefits of
using the DCAA’s services. However, we believe that executive-level endorsement of
the benefits of DCAA is also warranted.

The OIG considers recommendations 1 and 2 significant, therefore they require OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           4
Information Technology’s Preferred                                         CA-AR-09-007
 Portfolio Partnering Program

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, Director,
Supply Management, or me at (703) 248-2100.


   E-Signed by Office of Inspector General
     VERIFY authenticity with ApproveIt



Andrea Deadwyler
Acting Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Joseph Corbett
    Paula S. Garner
    Robert L. Oates III
    Deborah J. Judy
    Susan A. Witt
    Bill Harris




                                             5
Information Technology’s Preferred                                          CA-AR-09-007
 Portfolio Partnering Program


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The IT PPP program has been operational for over 10 years. The basic goals of the
program are to award long-term professional service ordering agreements to enterprise
wide IT providers, assist the Postal Service in delivering business solutions, and
maximize the value obtained from its IT investment.

The program does not provide for competition among suppliers when task orders are
issued. Rather, suppliers were competitively awarded ordering agreements for specific
portfolios and received all task orders for those portfolios. Accenture was awarded
ordering agreements for four of the six PPP portfolios: Mail Operations, Marketing,
Finance, and Human Resources. Electronic Data Systems (EDS) Corporation was
awarded an ordering agreement for the IT Infrastructure portfolio and Computer
Sciences Corporation (CSC) was awarded an ordering agreement for Other Enabling
Functions portfolio. In FY 2008, the Postal Service paid Accenture and EDS
approximately xxxxx million and xxxx million, respectively, under their PPP ordering
agreements. CSC was not paid under the PPP program in FY 2008. The current
ordering agreements will expire in August 2010.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to review the PPP task order pricing process to determine if the
price and cost analysis the Postal Service performed resulted in lower prices and
assess how the PPP program pricing process compares to that within the IT services
industries’ best practices.

To accomplish our objectives, we reviewed the current Postal Service SP&Ps; the
Purchasing Manual (PM), Issue 1, dated January 1997; and the Program Management
Plan for the PPP program, dated August 9, 2002. Additionally, we conducted audit
fieldwork at Postal Service Headquarters and reviewed all of the 192 task orders
entered into under the PPP program ordering agreements with Accenture between
October 1, 2007, and March 31, 2009. For each task order, we reviewed the Accenture
proposal, determined the extent of price and cost analysis the Postal Service
performed, and quantified the amount of any decrease in award amount due to
negotiations between the Postal Service and Accenture. We analyzed the results to
determine whether the price and cost analysis resulted in lower prices.

Also, we interviewed Postal Service officials, including the PPP COs, regarding the
background of the PPP program, purpose of the ordering agreements, and the approval
process for the individual task orders. Additionally, we requested DCAA to audit
Accenture’s estimating system. We also contracted with NGI-Solutions to obtain
information on government and industry best practices for pricing information
technology services. We relied on this information to assess how the PPP program
pricing process compares to best practices. NGI’s methodology and approach is
detailed in Appendix C.


                                           6
Information Technology’s Preferred                                          CA-AR-09-007
 Portfolio Partnering Program

We conducted this performance audit from October 2008 through August 2009, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on August 13, 2009, and
included their comments where appropriate. We relied on data obtained from the Postal
Service’s Enterprise Data Warehouse. We did not test the validity of controls over the
system. However, we obtained source documentation that validated the data we
obtained from it.

PRIOR AUDIT COVERAGE

We did not identify any OIG or Government Accountability Office reports related to the
objectives of our audit within the past 3 years.




                                           7
Information Technology’s Preferred                                                                 CA-AR-09-007
 Portfolio Partnering Program


                                   APPENDIX B: DETAILED ANALYSIS

Price and Cost Analysis for PPP Task Orders

We reviewed 192 PPP task order proposals totaling approximately xxxx million, 21 of
which the Postal Service negotiated down in price as shown in the table below:


            xxxx xxxxx                xxx                 xxxxxxxx             xxxxxxxxx
               xxxxxx             xxxxxxxxxx               xxxxxx               xxxxxx4         xxxxxxxxxx
       x    xxxxxxxxxxxxx           xxxxxxxxx               xxxxxxxxxxx          xxxxxxxxxxx       xxxxxxxxxx
      X     xxxxxxxxxxxxx           xxxxxxxxx                xxxxxxxxxx           xxxxxxxxxx       xxxxxxxxxx
      X     xxxxxxxxxxxxx            xxxxxxx                 xxxxxxxxxx           xxxxxxxxxx        xxxxxxxxx
      X     xxxxxxxxxxxxx            xxxxxxx                 xxxxxxxxxx            xxxxxxxxx       xxxxxxxxxx
      X     xxxxxxxxxxxxx       xxxxxxxxxxxxxxx                                   xxxxxxxxxx
                                                          xxxxxxxxxxxx                              xxxxxxxxx
      X     xxxxxxxxxxxxx       xxxxxxxxxxxxxxx                                 xxxxxxxxxxxx
      X     xxxxxxxxxxxxx       xxxxxxxxxxxxxxx              xxxxxxxxxx           xxxxxxxxxx       xxxxxxxxxx
      X     xxxxxxxxxxxxx       xxxxxxxxxxxxxxx              xxxxxxxxxx           xxxxxxxxxx       xxxxxxxxxx
      X     xxxxxxxxxxxxx       xxxxxxxxxxxxxxx           xxxxxxxxxxxx          xxxxxxxxxxxx       xxxxxxxxxx
      xx    xxxxxxxxxxxxx            xxxxxxx                 xxxxxxxxxx           xxxxxxxxxx        xxxxxxxx
      Xx    xxxxxxxxxxxxx            xxxxxxx                 xxxxxxxxxx           xxxxxxxxxx        xxxxxxxxx
      xx    xxxxxxxxxxxxx       xxxxxxxxxxxxxxx                                   xxxxxxxxxx
                                                             xxxxxxxxxx                                xxxxxx
      xx    xxxxxxxxxxxxx       xxxxxxxxxxxxxxx                                   xxxxxxxxxx
      xx    xxxxxxxxxxxxxx          xxxxxxxxx                    xxxxxxxxx         xxxxxxxxx        xxxxxxxx
      xx    xxxxxxxxxxxxx            xxxxxxx                 xxxxxxxxxx           xxxxxxxxxx        xxxxxxxx
      xx    xxxxxxxxxxxxx           xxxxxxxxx                xxxxxxxxxx                 xxxx       xxxxxxxxxx
      xx    xxxxxxxxxxxxx       xxxxxxxxxxxxxxx              xxxxxxxxxx           xxxxxxxxxx        xxxxxxxxx
      xx    xxxxxxxxxxxxx           xxxxxxxxx             xxxxxxxxxxxx          xxxxxxxxxxxx       xxxxxxxxxx
      xx    xxxxxxxxxxxxx           xxxxxxxxx                xxxxxxxxxx           xxxxxxxxxx        xxxxxxxxx
      xx    xxxxxxxxxxxxx           xxxxxxxxx             xxxxxxxxxxxx            xxxxxxxxxx     xxxxxxxxxxxx
      xx    xxxxxxxxxxxxx           xxxxxxxxx             xxxxxxxxxxxx          xxxxxxxxxxxx        xxxxxxxxx
                           xxxxxx                     xxxxxxxxxxxxxx         xxxxxxxxxxxxxx    xxxxxxxxxxxxx


Also, we identified nine proposals reviewed by a Postal Service contractor. The
contractor recommended modifications and price reductions based on their review.
However, as shown in the following table, the Postal Service did not incorporate most of
the contractor’s suggestions and there was an approximate xxxxx million difference
between the contractor’s target prices and committed amounts.




4
    In two instances, one proposal resulted in two task orders.

                                                             8
      Information Technology’s Preferred                                                                        CA-AR-09-007
       Portfolio Partnering Program


    xxxxxxxxxx              xxx             xxxxxxxxxx            xxxxxxxx         xxxxxxxxxxxx          xxxxxxxxx
                                                                                                                 5                     6
      xxxxxx             xxxxxxxxx        xxxxxxxxxxxxxx           xxxxxx          xxxxxxxxxxxx           xxxxxx          xxxxxxxxxx

    xxxxxxxxxxxxx     xxxxxxxxxxxxxxx                                                                      xxxxxxxxxxx
                                               xxxxxx
x   xxxxxxxxxxxxx     xxxxxxxxxxxxxxx                            xxxxxxxxxxxxx           xxxxxxxxxxx      xxxxxxxxxxxx       xxxxxxxxxxx
x   xxxxxxxxxxxxx     xxxxxxxxxxxxxxx          xxxxxx             xxxxxxxxxxxx           xxxxxxxxxxx      xxxxxxxxxxxx        xxxxxxxxxx
x   xxxxxxxxxxxxx     xxxxxxxxxxxxxxx          xxxxxx             xxxxxxxxxxxx          xxxxxxxxxxxx      xxxxxxxxxxxx      xxxxxxxxxxxx
x   xxxxxxxxxxxxx        xxxxxxxxx             xxxxxx             xxxxxxxxxxxx          xxxxxxxxxxxx      xxxxxxxxxxxx      xxxxxxxxxxxx
x   xxxxxxxxxxxxx         xxxxxxx              xxxxxx                 xxxxxxxxxx         xxxxxxxxxx         xxxxxxxxxx        xxxxxxxxxx
x   xxxxxxxxxxxxx     xxxxxxxxxxxxxxx   xxxxxxxxxxxxx xxxxxx          xxxxxxxxxx         xxxxxxxxxx         xxxxxxxxxx        xxxxxxxxxx
x   xxxxxxxxxxxxx        xxxxxxxxx             xxxxxx            xxxxxxxxxxxxx          xxxxxxxxxxxx     xxxxxxxxxxxxx      xxxxxxxxxxxx

                           xxxxxx                              xxxxxxxxxxxxxx      xxxxxxxxxxxxx       xxxxxxxxxxxxxx    xxxxxxxxxxxxxx

x   xxxxxxxxxxxxx     xxxxxxxxxxxxxxx   xxxxxxxxxxxxxxxxxxxx       xxxxxxxxxxx           xxxxx             xxxxxxxxxxx        xxxx
x   xxxxxxxxxxxxx        xxxxxxxxx             xxxxxx            xxxxxxxxxxxxx     xxxxxxxxxxxxx”        xxxxxxxxxxxxx        xxxx


      The PM states that COs are to ensure adequate price competition has been obtained by
      comparing proposed prices obtained in response to a solicitation to prices for the same
      or similar items obtained through market research. The CO should also verify cost or
      pricing data and evaluate cost elements for reasonableness of proposed costs. COs
      should always perform a price analysis, which should be relied on entirely in all but a
      few situations. Whenever adequate price competition has been obtained, comparing
      proposed prices with Postal Service estimates will ordinarily suffice to meet price
      analysis requirements. Cost analysis is normally done only when there is not adequate
      price competition and no method of price analysis will ensure that prices are fair and
      reasonable. It should be limited to cost elements needing close analysis to protect the
      Postal Service's interest. When a limited number of cost elements will provide a
      reasonable analysis, the CO should obtain only the data needed to support such an
      analysis.

      The PM also states that engineering, management, or a specialist should perform a
      technical analysis as necessary to assist in price or cost analysis. Technical analysis of
      proposals may range from evaluating technical proposals according to evaluation
      factors in a solicitation to extensive analysis of materials, labor hours and labor mix,
      special tooling and facilities, and other cost factors.

      Supply Management personnel competed the original contract and used competition —
      along with regular rate negotiations — to set reasonable and competitive labor hour
      rates for the contract. Supply Management personnel work with the IT program office to
      evaluate Accenture’s task order proposals and provide the program office with the
      contracted analysis of the proposals for consideration in performing the technical
      evaluation. However, the program office has generally rejected the recommendations
      of the contracted analysis, and their technical evaluation is generally documented in
      e-mail traffic that does not contain the details of their analysis or their basis for rejecting
      the recommendations.

      5
          In one instance, one proposal resulted in two task orders.
      6
          The difference is the committed amount minus the contractor’s target price.

                                                                  9
Information Technology’s Preferred                              CA-AR-09-007
 Portfolio Partnering Program


 APPENDIX C: NGI-SOLUTIONS REPORT ON BEST PRACTICES FOR PRICING IT
                  SERVICE CONTRACTS/TASK ORDERS




                          Report on Best Practices for
                   Pricing IT Service Contracts/Task Orders
                         For the Office of Inspector General,
                            United States Postal Service
                                 Task Order # SM004

                                      FINAL REPORT

                                       June 28, 2009




                                         Submitted By:
                                     NGI-S SOLUTIONS LLC
                                     1303 NEWKIRK COURT
                                       VIENNA, VA 22182




                                             10
Information Technology’s Preferred                                       CA-AR-09-007
 Portfolio Partnering Program


                                     TABLE OF CONTENTS



Executive Summary…………………………………………………………….….… 3

I. Background………………………………………………………………………...                                  5

II. Methodology and Approach……………………………………………………... 5

III. Results of Data Collection and Research………………………………………. 7

    A. Summary of Agency Practices…………………………………………………. 7

       1. Selection of Contract Type/Vehicle………………………………………….. 7

         a) Factors Influencing an Agency’s Use of a Single Award IDIQ………….. 9

         b) Factors Influencing an Agency’s Use of a Multiple Award IDIQ………. 11

       2. Technical and Price Evaluation of Task Orders…………………………… 11

       3. Ordering Procedures………………………………………………………..                        12

    B. Summary of Industry Internal IT Buying Practices………………………….. 17

       1. Competition Standard………………………………………………………                         17

       2. Assessing Technical Qualifications of Competing Firms…………………. 17

       3. Determining Price Reasonableness………………………………………... 17

       4. Best Practices ……………………………………………………………...                         18

IV. Summary of Best Practices……………………………………………………. 19

    A. Factors in Choosing Single Award Indefinite Quantity Contract…………… 19

    B. Factors in Choosing A Multiple Award Indefinite Quantity Contract………. 20

    C. Best Practice: The Project Management Office……………………………... 20

    D. Best Practices for Streamlining Ordering Techniques………………………..21

V. Recommendations……………………………………………………………….                                 22




                                            11
Information Technology’s Preferred                                            CA-AR-09-007
 Portfolio Partnering Program


Executive Summary

NGI-Solutions, along with its business partner Jefferson Solutions, (hereafter
NGI/Jefferson) was tasked by the Postal Service Office of Inspector General to identify
best practices for pricing IT service contracts/task orders.

NGI/Jefferson’s approach to gathering data consisted of both Internet research and
interviews with federal agencies and private sector companies. Within the government,
NGI/Jefferson interviewed procurement executives and personnel from agencies’ offices
of information technology. Within industry, NGI/Jefferson interviewed those executives
responsible for providing IT to agencies through government-wide agency contracts
(GWACs) and other large contracts as well as those responsible for acquiring IT
services in support of their company’s internal operations.

Internet research included reviewing a broad array of both civilian and Defense
agencies’ indefinite quantity contracts and GWACs. In addition, agency Inspector
General (IG) reports and General Accountability Office (GAO) reports were reviewed.

The data presented a clear policy preference for multiple award indefinite quantity
contracts over single award indefinite quantity contracts. Agencies discussed the
reasons for the move away from single award indefinite quantity contracts. The major
reason given was a belief that they were paying higher prices and getting inferior
performance for work under task orders issued without competition. Both agencies as
well as industry executives managing agency-run indefinite delivery, indefinite quantity
contracts (IDIQ) and GWAC programs mentioned the 2008 National Defense
Authorization Act statutory requirement for enhanced competition of task and delivery
orders valued at over $5 million and the prohibition against single award requirements
contract valued at over $100 million unless certain criteria are present. See Pub. Law
No. 110-181, Section 843.

NGI/Jefferson recommends that the Postal Service use competition as a basic tool
when buying IT goods and services, but permit exception to competition similar to the
FAR fair opportunity exception that enables task orders to be awarded without
competition in certain circumstances. These circumstances include

    •   Urgency;

    •   Only one contractor can provide services;

    •   Logical follow-on work; or

    •   Satisfy contractor’s minimum guarantee

Other recommendations include—

    •   Enhancing acquisition planning both at the program level and at the individual
        task order level

                                            12
Information Technology’s Preferred                                            CA-AR-09-007
 Portfolio Partnering Program



    •   Fostering communication between the agency and multiple awardees

    •   Developing streamlined ordering guidelines and evaluation processes




                                          13
Information Technology’s Preferred                                             CA-AR-09-007
 Portfolio Partnering Program


I.      Background

The US Postal Service (USPS) has been operating the Information Technology’s (IT)
Preferred Portfolio Partnering (PPP) Program for nearly 10 years. The basic goal of the
program is to award long-term professional service ordering agreements to enterprise-
wide IT providers in order to assist the Postal Service in delivering business solutions
and maximizing the value obtained from its IT investment. The concept of utilizing a
Preferred Portfolio Partner was to allow the Postal Service to provide functional and
enterprise-wide solutions with fewer suppliers, rather than entering into separate
contracts or placing orders among multiple suppliers to support single projects.
Accenture was awarded ordering agreements for four of the six PPP portfolios: Mail
Operations, Marketing, Finance, and Human Resources; EDS was awarded an ordering
agreement for the IT Infrastructure; and CSC was awarded an ordering agreement for
Other Enabling Functions. The current ordering agreements will expire in August 2010.

The basic long-term ordering agreements are structured in a similar manner. Each
portfolio provider had proposed loaded hourly labor rates for a list of specific positions.
Under the basic agreement the portfolio provider is to develop a series of business
solutions in its respective portfolio area. The Postal Service begins the process by
identifying one or more subject areas where it wishes to develop solutions. For each
subject area identified, the provider enters into discussion with postal managers to
devise an approach to the work, and documents the approach in a specific proposal
(identifying scope, deliverables, resources required from the USPS and costs) to
explore the subject area and design a solution. When the proposal has been finalized
and accepted by the Postal Service, it forms the basis for a Phase I effort.

Under Phase I, the provider is to provide a statement of work (SOW) to develop and
implement the proposed solution (Phase II), a technical and cost proposal for
performing the SOW, and a separate SOW and cost proposal for providing a Transfer of
Knowledge to another provider should the Postal Service choose to use a different
supplier for Phase II. When the Postal Service accepts a provider’s proposal for Phase
II, the provider will develop and implement the solution in accordance with the SOW
developed in Phase I.

NGI Solutions and their partner, Jefferson Solutions, (NGI/Jefferson) were tasked by the
OIG to identify and interview executives both within the Federal Government as well the
private sector, to identify best practices for pricing IT service contracts/task orders and
to make recommendations to OIG regarding the PPP Program.

II.     Methodology and Approach

NGI/Jefferson’s approach to gathering data consisted of both Internet research and
interviews with federal agencies and private sector companies. Within the government,
NGI/Jefferson interviewed procurement executives and personnel from agencies’ offices
of information technology. Within industry, NGI/Jefferson interviewed both those
executives responsible for providing IT to agencies through GWACs and other large
contracts and those responsible for acquiring IT services in support of their company’s
internal operations.
                                            14
Information Technology’s Preferred                                            CA-AR-09-007
 Portfolio Partnering Program




NGI/Jefferson’s interviews covered the following agencies:

        •   Pension Benefit Guaranty Corporation (PBGC)
        •   Environmental Protection Agency (EPA)
        •   General Services Administration (GSA)
        •   Department of Interior (Interior)

NGI/Jefferson’s interviewed executives from the following industries:
      • General Dynamics
      • Lockheed Martin
      • SAIC
      • Tygart Technologies

Agency interviews focused on the decision-making process for using either a multiple-
award vehicle such as an agency-run IDIQ, GWAC, or GSA Schedule 70 or a single
award indefinite quantity contract; specifically, questions focused on:

    •   The number of task orders and dollar range of task orders issued against any
        indefinite quantity contract in a given year
    •   The agencies’ use of streamlined techniques for ordering
    •   The extent of technical evaluation conducted for each task order issued
    •   The extent to which cost/price was analyzed both during the award of the
        indefinite quantity contract and at the task order level
    •   The factors influencing the agency’s decision to use either a single or a multiple
        award indefinite quantity contract

For industry executives responsible for acquiring IT services in support of their
company’s internal operations, questions focused on:

    •   The extent to which individual requirements are competed
    •   How technical qualifications of competing firms are assessed
    •   How companies determine fair and reasonable pricing for the services being
        procured
    •   What ordering procedures are utilized
    •   Whether best practices are instituted

Internet research included reviewing a broad array of both civilian and Defense
agencies’ indefinite quantity contracts such as Navy’s SeaPort-e, Department of
Homeland Security’s Eagle, Air Force’s Netcents, and FBI’s ITSS-3. GWAC vehicles
reviewed, along with their respective ordering guides, included:

    •   GSA’s Alliant, Millennia, Millennia Lite, Commits NexGen, and Schedule 70
    •   NIH’s CIO-Sp2i
    •   NASA’s SEWP (Solutions for Enterprise-Wide Procurement)

                                            15
Information Technology’s Preferred                                            CA-AR-09-007
 Portfolio Partnering Program



In addition, agency Inspector General (IG) reports and General Accountability Reports
(GAO) were reviewed, to include.

       •   Interagency Contracting: Improved Guidance, Planning, and Oversight Would
           Enable the Department of Homeland Security to Address Risks, GAO Report to
           Congressional Requesters (Sept. 2006)
       •   Task Orders on the Air Force Network-Centric Solutions Contract, Inspector
           General, Department of Defense, Report No. D-2008-007 (Oct. 25, 2007)
       •   Interagency Contracting: Problems with DOD’s and Interior’s Orders to Support
           Military Operations, GAO Report to Congressional Committees (April 2005)
       •   Transportation Security Administration’s Information Technology Managed
           Services Contract, Department of Homeland Security Office of Inspector
           General, Report OIG-06-23 (Feb 2006)
       •   FY 2006 DoD Purchases Made Through the National Institutes of Health,
           Department of Defense, Office of Inspector General, Report No. D-2008-022
           (Nov. 15, 2007)
       •   Review of Interagency Agreement between the Department of Veterans Affairs
           and Department of Navy, Space Naval and Warfare Systems Center (SPAWAR),
           Department of Veterans Affairs Office of Inspector General, Report No. 09-
           01213-142 (June 4, 2009)
       •   Interagency Contracting: Franchise Funds Provide Convenience, but Value to
           DoD is Not Demonstrated, GAO Report to Congressional Committees, GAO-05-
           456 (July 2005)
       •   Defense Acquisitions: DoD Needs to Exert Management and Oversight to Better
           Control Acquisition of Services, GAO Testimony Before the Subcommittee on
           Readiness and Management Support, Committee on Armed Services, U.S.
           Senate, GAO-07-359T (Jan. 17, 2007)
       •    FY 2005 DoD Purchases Made Through the National Aeronautics and Space
           Administration, Department of Defense, Office of Inspector General, Report No.
           D-2007-023 (Nov. 13, 2006)
       •   Federal Acquisition: Oversight to Help Implement Acquisition Advisory Panel
           Recommendations, GAO Report to the Committee on Oversight and Government
           Reform, House of Representatives, GAO-08-160 (Dec. 2007)

The data collected were then compared and analyzed.

III.       Results of Data Collection and Research

       A. Summary of Agency Practices

           1. Selection of Contract Type/Vehicle

The data presented a clear policy preference for multiple award indefinite quantity
contracts over single award indefinite quantity contracts. Agencies discussed the
reasons for the move away from single award indefinite quantity contracts, including a
belief that they were paying higher prices and getting inferior performance for work

                                             16
Information Technology’s Preferred                                             CA-AR-09-007
 Portfolio Partnering Program

under task orders issued without competition. Agencies also cited the enhanced
competition provisions embodied in the 2008 National Defense Authorization Act as
influencing their decision to use multiple award indefinite quantity contracts. Section 843
provides—

    •   Enhanced competition requirements for the award of multiple award contract task
        and delivery orders valued at over $5 million

    •   Prohibition against single award task or delivery order contract valued at over
        $100 million (including options) unless the agency head determines in writing that
        certain criteria are present

Agencies mentioned that they use a variety of multiple award indefinite quantity
contracts, to include their own agency-run multiple award contracts, Government-wide
Agency Contracts (GWACs), and to a more limited extent, Blanket Purchase
Agreements (BPAs).

A strong theme throughout, mentioned by both government and industry, is the lack of
strategic planning and involvement of agency stakeholders when choosing how best to
procure needed IT goods and services. Industry commented that agencies will often
choose to develop their own agency-run multiple award contract rather than use an
existing GWAC to avoid the access fee charge without taking into account the
administrative cost and manpower necessary to adequately administer the contract.
Further, agencies will often make their own multiple award contract mandatory within
the agency without having received sufficient input from agency customers to
understand if the contract will meet the customers’ needs. In other cases, the agency
will not make use of their own contract mandatory and customers choose not to use it.

The data suggests an upward          One industry executive interviewed stated that the
trend toward the use of agency-      trend toward agencies using their own ordering
run multiple award contracts.        vehicles was due to the fact that an agency-run
FedSources reported that             multiple award contract can be written more
between fiscal 2005 and 2007,        broadly than a GWAC. As pointed out, GWACs
the volume of GWAC business          were created solely to procure IT goods and
dropped nearly 30 percent,           services. He is seeing agency-run vehicles that
while spending on agency-run         are for both IT and non-IT mission support needs.
multiple-award contracts rose        For instance, Navy’s SeaPort-e is used to acquire
more than 40 percent. The            both systems engineering and systems support.
GSA schedule is down, from 17        Traditionally, GWACS were popular because
percent of spending in the IT        contracting officers believed that GWACs would
market in 2005 to 14 percent in      relieve them of the cost and effort of managing
2007.                                their own contracts. GAO reported that agencies
                                     frequently awarded GWAC task orders without
adequate competition and then failed to manage the performance of the work, frittering
away whatever savings were realized by using the GWAC. The DOD IG has
documented case after case in which defense agencies took a laissez faire approach to
task orders, relying too much on the GWAC contract office to provide oversight.

                                            17
Information Technology’s Preferred                                             CA-AR-09-007
 Portfolio Partnering Program




The newer GWACS are offering customized Agencies that manage
services and compliance oversight. For instance, GWACs are working hard
NASA’s SEWP provides reports and tracking and to refashion their
trains customer agency buyers to ensure they use contracts to be more
SEWP and its tools properly. In addition, the competitive, promising
request-for-quotes tool builds in competition. In customer agencies wider
seconds, the tool’s search feature can pick out choice, faster and easier
product and service options fitting the customer’s service, and better
needs from a list of thousands and then even compliance with
suggest additional vendors who offer products procurement rules.                 and
services that may be similar to those selected by                                 the
user. NASA claims that SEWP has been successful in part because it rapidly evolves,
responding to customer needs for new technology to meet their missions. SEWP has a
“technology refreshment” process that allows prime contractors to add new products or
subcontractors offering advances in technology. Technology refreshment can be done
on a daily basis, according to SEWP’s Website. GSA has designed technology
refreshment into its new Alliant GWAC.

According to GSA, BPAs are very popular right now. EPA validated this, stating that
they have been using BPAs to procure many of their IT buys. According to EPA, it is
easier and faster to establish a BPA. The BPA labor rates are based on the company’s
IT Schedule. Thus, there is a belief that labor rates are fair and reasonable having
already gone through the rigors to get on the Schedule. Further discounts are requested
when orders are placed against the BPA. The downside to a BPA established from the
GSA Schedule is that order contract types are limited to either fixed price or time-and-
material.

            a) Factors Influencing an Agency’s Use of a Single Award IDIQ

Both agency and industry representatives identified the nature of the work involved as a
factor for making a single award indefinite quantity contract. Single awards make sense
when tasks to be ordered are so integrally related that only a single contractor can
reasonably perform the work or only one contractor is capable of providing performance
because the supplies/services are so unique or highly specialized. These reasons are
recognized in the Office of Federal Procurement Policy’s (OFPP) Best Practices for
Multiple Award Task and Delivery Order Contracting (1999). Four additional factors for
use of single awards identified in the OFPP guidance included:

    •   More favorable terms and conditions, including pricing, can be secured under a
        single award

    •   The cost of administration of multiple contracts outweighs any potential benefits

    •   The estimated contract value is less than the simplified acquisition threshold

                                             18
Information Technology’s Preferred                                                   CA-AR-09-007
 Portfolio Partnering Program


      •   Multiple awards are not in the best interest of the government.

These additional considerations will likely be revised to be consistent with the enhanced
competition requirements for task and delivery order contracts in Section 843 of the
Fiscal Year 2008 National Defense Authorization Act (Pub. L. No. 110-181).
Interestingly, the new legislative language is a complete reversal from the OFPP
guidance from a decade ago—in 1999 a single award could be made if…in 2008 a
multiple award is required unless…

More specifically, Section 843 provides that no task or delivery order contract in an
amount estimated to exceed $100 million (including all options) may be awarded to a
single source unless the head of the agency determines in writing that—

      •   The task or delivery orders expected under the contract are so integrally related
          that only a single source can reasonably perform the work;

      •   The contract provides only for firm-fixed price task or delivery orders;

      •   Only one source is qualified and capable of performing the work at a reasonable
          price to the Government; or

      •   It is necessary in the public interest to award the contract to a single source due
          to exceptional circumstances.

The agency head must notify Congress within 30 days after making the determination in
the public interest to make a single source award. On September 17, 2008, the Civilian
Agency Acquisition Council and the Defense Acquisition Regulations Council issued an
interim rule with request for comments that essentially mirrored Section 843 of the Act
and revised three provisions of the Federal Acquisition Regulation (FAR 16.503 –
16.505) to incorporate the Act’s enhanced competition requirements.1 Although the
Postal Service does not follow the FAR, these new rules are useful for recognizing
when a single award might be appropriate.


Another factor influencing an
agency’s decision to choose a
single award indefinite
quantity contract is the ability
to obtain continuity and
synergy across applications
and platforms. In the single
award environment the
contractor can take on this role
and is also more vested in the
overall program success. In

1
    See 73 Fed. Reg. 54008 (Sept. 17, 2008).

                                                19
Information Technology’s Preferred                                               CA-AR-09-007
 Portfolio Partnering Program


the multiple-award                     Industry also suggested that a single award
environment, it is up to the           indefinite quantity contract had the advantage of
government to create the               enabling more open communication between the
necessary synergy.                     government and contractor without fear of violating
                                       the FAR restrictions on communications after
release of a solicitation (or task order request). Industry thought the ability to have freer
communication regarding the requirements of a particular task order were
advantageous so as to (1) better judge whether or how they could satisfy the
requirements with a more accurate projection of the cost and (2) offer suggestions for
improvements to the requirements so that the government could get a better overall
solution.

Although it is clearly more burdensome to compete task orders, neither government nor
industry raised this as a reason for favoring a single indefinite quantity award over a
multiple award. In fact, industry stated that it was fully equipped to respond to
competitively solicited task orders.

            b) Factors Influencing an Agency’s Use of a Multiple Award IDIQ

Overwhelmingly, both                 In implementing the enhanced competition provisions
government and industry              of Section 843 of the 2008 NDA, the FAR Federal
believe that a competitive           Register notice stated that competition of orders leads
environment at the task              to improved contractor performance, stimulation of
order level results in better        technological solutions, and reduction of costs over
pricing along with better            time. The tenets of this provision strike at the core of
quality services being               enhancing competition and ensuring competition
provided.                            continues to exist even after award of the initial
                                     contract vehicles. This message is resonating with
                                     agencies, which are awarding multiple award contracts
as a general practice.

Agencies also asserted a strong view that, even more important than price, competition
at the task order ensures you get the “A” team and keep the top performers on the
contract. Industry admitted that in a non-competitive task order environment, companies
are more prone to place junior staff or trade out staff, especially when the task is for
maintenance of a system, involves a repetitive task, or for government staff
augmentation. Industry stated that how an agency sets up the contract is indicative of
what type of team it gets. For instance, a task order that is structured as performance-
based generally results in better quality staffing and delivery of services.




        2. Technical and Price Evaluation of Task Orders

At the task order level, technical and price evaluations are conducted in much the same
manner as any procurement. Generally two separate evaluations are conducted to
determine the winner of the task order: a technical evaluation and a price evaluation. To
                                               20
Information Technology’s Preferred                                               CA-AR-09-007
 Portfolio Partnering Program

ensure unbiased evaluations, neither the technical evaluation panel nor the price
evaluation panel is permitted access to the other panel’s portion of the vendor
proposals.

One agency described the role and functions of the technical evaluation panel (TEP) to
include:

    •   Technical Evaluation Board (TEB) scores the technical proposal

    •   Contracting officer/contracting specialist evaluates the cost proposal

    •   TEB uses the TEP as a guide

    •   Includes rules of behavior (security, independent evaluation followed by
        consensus, etc.)

    •   Includes evaluation factors, sub factors, criteria—adjectives, points, colors or etc.

    •   TEP usually includes score sheets as an aid to evaluation

    •   TEP mirrors Sections L (Instructions) and M (Evaluation Criteria) of the
        solicitation

    •   Detail and documentation—strengths, weaknesses, risks or other elements as
        called out in the TEP—is crucial

    •   Generally uses Best Value award

    •   Composition of board depends on requirements

    •   In single bids, the decision still needs to be well documented

    •   Major decisions are reviewed by the Contract Review Panel, and
        recommendations of the acquisition project manager and general counsel carry
        much weight

Agencies use a variety of methods in evaluating whether a proposed price is fair and
reasonable, these include—

    •   Independent government cost estimate

    •   Past buying history

    •   Comparing pricing from public pricing sources, such as the GSA IT Schedule

Agencies stated that they viewed competition of the task order in-and-of-itself as a
strong mechanism to ensure contractors propose fair and reasonable pricing.

                                              21
Information Technology’s Preferred                                                   CA-AR-09-007
 Portfolio Partnering Program



In the case of a complex procurement, agencies stated that they perform a cost realism
analysis in addition to the price reasonableness analysis. As recognized in the FAR, the
intent of the cost realism analysis is to determine whether the estimated proposed
price/cost elements are realistic for the work to be performed; reflect a clear
understanding of the requirements; and are consistent with the approach described in
the contractor’s technical proposal.

        3. Ordering procedures

Agencies follow the ordering procedures governed by FAR 16.505. All contract holders
of a multiple award contract are provided a fair opportunity to be considered for each
task order award. And, a task order may be awarded without competition in the
following four exceptions pursuant to FAR 16.505(2):

    •   Urgency;

    •   Only one contractor can provide services;

    •   Logical follow-on work; or

    •   Satisfy contractor’s minimum guarantee

In practice, some agencies use the above exceptions to avoid competition. A 2006
DOD IG report on DOD’s use of NASA’s GWAC (the precursor to the current NASA
SEWP), found that multiple award contractors were not given a fair opportunity to be
considered for award in accordance with FAR 16.505.2 The report also cited improper
use of the logical follow-on exception. Here, rather than competing an entire
requirement and obtaining full competition among the task holders, only a small portion
of the requirement would be competed with the remaining requirement being procured
sole source as a logical follow-on. The report found that because contracting officials
consistently failed to provide fair opportunity or solicited only one vendor, the officials
did not always obtain the best price. Failure to provide fair opportunity to the SEWP
multiple-award contractors prevented the government from fully achieving the savings
available from price competition.

Agencies identified the following practices for both streamlining and improving the
ordering process—

    •   Provide flexibility to vary the process to take into account:
           o The nature of the requirements
           o The size and complexity of the requirement
           o Time constraints

    •   Follow a uniform and consistent approach for soliciting, evaluating, negotiating
2
 Department of Defense office of Inspector General: FY 2005 DoD Purchases Made Through the
National Aeronautics and Space Administration (D-2007-023) (Nov. 13, 2006).

                                               22
Information Technology’s Preferred                                                CA-AR-09-007
 Portfolio Partnering Program

          and awarding all task orders (including templates for SOWs)

      •   Ensure that requirements are as specific and clearly defined as possible

      •   Keep RFQ submission requirement to the necessary minimum

      •   Limit non-price factors to those few that are meaningful discriminators among
          competing offers

      •   Use oral proposals in lieu of or in addition to requesting written proposals when
          making a task order award

      •   Issue advance notice of the task order or draft SOWs

      •   Award task orders, when possible, based on initial technical and cost proposal
          submissions

Section 843 emphasizes the importance of following certain specified procedures in the
competitive placement of task or delivery orders with an expected value in excess of $5
million (including options) placed against multiple award contracts. All awardees must
be given a fair opportunity to be considered for each order and procedures require, at a
minimum—

      •   A notice of the order with a clear statement of requirements,

      •   A reasonable response period,

      •   Disclosure of the significant evaluation factors and sub factors, and

      •   Where award is made on a best value basis, a statement documenting the basis
          for award and the relative importance of quality and price or cost factors

Commentators to the FAR Interim rule implementing Section 843 stated that, while not
taking exception to these enhanced competition requirements, there is a concern
whether the new “mini-CICA process” would decrease efficiency and increase transition
costs.

The Alliant GWAC Ordering Guide3 identified two approaches for streamlined/Multi-
Phased order competitions: (1) OPT IN/OPT OUT and (2) White Paper, as follows.



      1. OPT IN/OPT OUT Approach

          Phase One


3
    GSA Alliant GWAC Ordering Guide (April 22, 2009).

                                                   23
Information Technology’s Preferred                                                      CA-AR-09-007
 Portfolio Partnering Program

        •   Develop a preliminary RFQ or RFP that includes salient characteristics of the specific
            requirement (e.g. work synopsis, security clearance needs, specialized information,
            certifications required, deliverables, response requirements, etc.) and discloses the
            general basis on which selections will be made
                 o Instruct contractors to inform the OCO of their affirmative interest in the
                     competition by the date shown in the preliminary RFQ or RFP, or they will not
                     be included in phase two (stating that a non-response in the affirmative will
                     constitute an opt-out.)
                 o Establish a response deadline that makes sense for phase one (a few will
                     typically suffice – Alliant industry partners have an affirmative duty to
                     vigorously monitor Alliant fair opportunity channels.)
                 o Transmit the preliminary RFQ/RFP to the entire list of awardees to determine
                     their interest in the competition, permitting them to opt-in or opt-out of phase
                     two. We recommend using any electronic system that affords fair opportunity
                     to the pool (e.g., GSA’s e-Buy or GSA IT Solutions Shop utilizing the Alliant
                     pick list to all).
        •   Maintain a record of the preliminary RFQ/RFP transmittal and responses in the Order
            file to document use of fair opportunity procedures.
        •   The OCO should include all Alliant contractors that have indicated interest (opted in)
            for further consideration in phase two.

        Phase Two

        Ensure that all Alliant prime contractors who opted-in during Phase One receive a copy
        of the full RFQ/RFP in Phase Two. Historically, this process reduces the number of
        proposals by targeting those industry partners who have researched their current
        capabilities and availability, and provides useful acquisition planning/logistical/milestone
        information.

    2. White Paper Approach

        Phase One

        A SOO/SOW/PWS [statement of objectives/statement of work/performance work
        statement] is sent to the pool explaining that a multiphased approach will be used. The
        Government will request a white paper response limited to 7 pages (page limitation is
        discretionary) which includes price (e.g., NTE, rough estimate) and non price
        considerations (e.g. degree of understanding of the problem/s, realism of the proposed
        technical approach, innovativeness of conceptual approach, risk factors, past
        performance). Based on the white paper responses the government will determine which
        contractors are most likely to submit the highest value solutions and include them in the
        second phase.

        Phase Two
        Contractors offering the highest value solutions will then submit proposals.            The
        Government evaluates the proposals and makes award.




                                                 24
Information Technology’s Preferred                                                        CA-AR-09-007
 Portfolio Partnering Program

DHS’s EAGLE4 identifies two optional approaches to conduct EAGLE Task Order
competitions: the traditional ordering process and the multiphased fair opportunity
process.

      1. Traditional Ordering Process

          When utilizing the traditional process, all prime contractors within the designated
          functional category will be provided the opportunity to submit full technical and cost
          proposals. Therefore, if the TO request is complex and requires extensive technical and
          cost proposals from each contractor, the Government would need to allocate the proper
          resources and schedule to evaluate each of these proposals according to the Evaluation
          Plan. The following key steps are to be followed for the traditional ordering process:

              •   A SOO/SOW/PWS is sent with a “Request for Traditional Technical and Cost
                  Proposal” to all prime contractors within the designated functional category. The
                  request should typically place a limit of no more than 15 pages on the technical
                  proposal, subject to adjustment at the discretion of the TO CO based on the size,
                  scope and complexity of the TO. The request may also include an oral
                  presentation requirement if it is determined to be beneficial to the evaluation. A
                  complete cost proposal must be submitted, with no page restrictions. The amount
                  of time allowed for the traditional response is typically eight days, which may be
                  adjusted based on the scope/complexity of the requirement and the needs of the
                  customer.

              •   Technical and cost evaluations are conducted by the Government evaluation
                  teams designated according to the written Evaluation Plan.

              •   Negotiations take place (if needed).

              •   A TO is awarded to the successful offeror.

      2. Multiphased Ordering Process

          While it is anticipated that the traditional ordering process will be used for the majority of
          requirements under EAGLE, a multiphased approach is available for use when
          appropriate. This approach may be used in conducting fair opportunity competitions
          under either a small business set-aside or an unrestricted basis. It consists of a Phase 1
          request for a brief technical proposal and cost estimate, followed by a down-select and
          request for full technical and cost proposals from the remaining competitors. The
          multiphased process provides three major benefits. First, it allows the Government to
          focus the TO selection on the most qualified contractors. Second, it saves the
          Government significant time and expenditures associated with evaluating a potentially
          large number of proposals. Third, it saves less qualified candidates significant time and
          expenditures in bid and proposal costs. The following key steps are followed for the
          multiphase process:

              •   A SOO/SOW/PWS is sent with a request for a multiphased proposal to all prime
                  contractors within the designated FC. The request could be for a written
                  proposal, oral proposal, or both. If the Phase 1 request includes a written

4
    Enterprise Acquisition Gateway for Leading-Edge Solutions (EAGLE) Ordering Guide (Sept. 2008).

                                                   25
Information Technology’s Preferred                                                      CA-AR-09-007
 Portfolio Partnering Program

                proposal, the request would typically place a limit of no more than seven pages
                for the response, which encompasses the proposed technical and management
                approach, as well as past performance information. Within the seven pages, the
                offeror should also include a preliminary estimate or not-to-exceed (NTE)
                estimate for cost. The amount of time allowed for the Phase 1 response is
                typically five days, which may be adjusted based on the scope/complexity of the
                requirement and the needs of the customer. The request may also include an
                oral presentation requirement if it is determined to be beneficial to the evaluation.

            •   Technical evaluations and evaluations of the preliminary cost estimate/NTE are
                conducted by the Government evaluation teams designated according to the
                written Evaluation Plan.

            •   Based on the evaluations, a down-select could occur which identifies the
                contractors that would be most qualified to compete for the TO. The down-select
                process could identify one or more prime contractors that are the most qualified.

            •   Only the qualified offeror(s) that are identified in the down select process will be
                invited to submit a Phase 2 Traditional Technical and Cost Proposal.

            •   Technical and cost evaluations are conducted by the Government evaluation
                teams designated according to the Evaluation Plan.

            •   Negotiations would take place (if needed).

            •   A TO is awarded to the successful offeror.

B.      Summary of Industry Internal IT Buying Practices

The large government contractors interviewed appear to have a common approach to
their internal buying practices for IT buys that are similar to those established in the
Federal Acquisition Regulation (FAR).

        1. Competition standard

Competition is required on all buys with the caveat that purchases under certain dollar
thresholds (threshold is typically $5,000 but can be higher with justification) can be
made with a purchase card (PCARD). The PCARD is similar to the government’s
purchase card (used for micro-purchases or those valued at $3,000 or less). Some firms
have developed electronic catalog systems and master contracts to streamline the
competition process.

        2. Assessing Technical Qualifications of Competing Firms

The Request for Information (RFI) is a general practice used to narrow the competition
pool. Some firms also use firms like Gartner to provide analysis of the top performers for
the needed buy along with their rating. The RFI process will narrow the competition pool
to a more reasonable number. Although no protest provisions exist, companies keep
detailed documentation as to the award decision. Most efforts are firm fixed price; while
some are time-and-materials based.
                                                 26
Information Technology’s Preferred                                             CA-AR-09-007
 Portfolio Partnering Program



The technical qualifications of competing firms are assessed as follows:

      •   Technical team develops statement of work and specifications and uses a
          weighted analysis of non price factors

      •   Technical team evaluates proposals (The technical team is precluded from
          seeing the price)

      •   Buyer considers price and results of technical evaluation and makes award

          3. Determining Price Reasonableness

Prices are determined to be fair and reasonable in much the same manner as the
government. The firms interviewed identified the following tools—

      •   Price comparisons

      •   Review buy history

      •   Look at the prices listed on the GSA IT Schedule.

          4. Best Practices

Industry identified various best practices for enabling better efficiencies for internal IT
buys—

      •   Maintain clear channels of communication among all interested parties

      •   Standardize requirements forms so that the submission of requirements data is
          complete (use clearly defined fields for data gathering). This will minimize the
          back-and-forth between the customer and contract units.

      •   Use uniform policies and guidelines for ordering

      •   Utilize electronic ordering catalogs to streamline the process

      •   Rate vendors performance and use past performance when selecting vendors

      •   Provide timely guidance on deadlines so procurements can be planned
          appropriately




IV.       Summary of Best Practices


                                               27
Information Technology’s Preferred                                                              CA-AR-09-007
 Portfolio Partnering Program


A.      Factors in Choosing Single Award Indefinite Quantity Contract

Even though multiple task order indefinite quantity contracts are preferred, there are
certain circumstances when a single award indefinite quantity contract might be
appropriate.

     Factors in Choosing Single Award Indefinite Quantity
     Contract

         •   The task or delivery orders expected under the contract are so
             integrally related that only a single source can reasonably perform
             the work

         •   Only one source is qualified and capable of performing the work at a
             reasonable price to the Government

         •   The contract provides only for firm-fixed price task or delivery orders
             using unit prices that were competed in the award of the basic
             instrument

         •   It is necessary in the public interest to award the contract to a single
             source due to exceptional circumstances

         •   More favorable terms and conditions, including pricing, can be
             secured under a single award5

         •   The cost of administration of multiple contracts outweighs any
             potential benefits to be derived from competition

         •   The estimated contract value is less than the simplified acquisition
             threshold

_________________
5
  Office of Federal Procurement Policy’s 1999 Best Practices for Multiple Award Task and Delivery Order
Contracting provided an illustration of circumstances when more favorable terms and conditions,
including pricing, could be obtained if single awards were made. Examples include the award of certain
kinds of fixed-price construction contracts and Simplified Acquisition of Base Engineer Requirements
contracts. These types of contracts typically include government-established unit prices for specific line
items needed to complete the requirements of the delivery order. Award determinations are made by
selecting the mix of line items to be used for a project and multiplying the mix of line items by the
coefficient bid by the offeror. The contractor's coefficient is based on cost elements such as overhead,
profit, minimum design costs, G&A expenses, bond premiums, and gross receipt taxes. These contracts
have much of their pricing determined by pre-award competition. It is possible that the use of multiple
awards for these contracts could result in higher overall prices to the government because offerors might
be inclined to raise their bidding coefficients to account for the fact that potential delivery orders would be
spread out among several firms, which means that the companies would have fewer tasks over which to
spread their overhead.


B.      Factors in Choosing A Multiple Award Indefinite Quantity Contract

                                                      28
Information Technology’s Preferred                                                          CA-AR-09-007
 Portfolio Partnering Program



The factors common in choosing a multiple award indefinite quantity contract are set
forth in the following table.
In addition to the above factors, there is a presumption is favor of continuing competition
at the task order level in multiple award contracts.6

Factors in Choosing A Multiple Award Indefinite Quantity
Contract

     •   More than one source is qualified and capable of performing the work

     •   Improved pricing and technical performance can be obtained in a
         competitive environment

     •   Multiple awards provide access to a greater breadth of technical
         capabilities and backup capacity

     •   Optimal pricing is best obtained at the time task orders are issued

     •   The number of task orders issued against a multiple award contract in a
         given year are manageable

     •   Sufficient program resources are available to conduct technical
         evaluations to determine award of task orders, and the cost savings and
         technical improvements leveraged though competition outweigh the
         additional administrative costs associated with awarding and managing
         task orders with multiple contractors

C.       Best Practice: The Project Management Office
One agency focused on the important role of the Project Management Office in
improving the acquisition process.
                            Role: Project Management Office

     •   Provides tools and processes for the project team to do their jobs

     •   Assists with employee professional development

     •   Emphasizes that repeatable process are good for the organization: cost
         savings, increase efficiency, informal communications, and manages
         change                                                                                        D.


6
 See generally Yukins, “Are IDIQs Inefficient? Sharing Lessons With European Framework Contracting,
Public Contract Law J. Vol 37, No.3 (Spring 2008) regarding the parallel rise of IDIQ contracts in Europe
and the United States.

                                                    29
Information Technology’s Preferred                                            CA-AR-09-007
 Portfolio Partnering Program


        Best Practices for Streamlining Ordering Techniques

The below table was developed through research and interviews with various
government agencies and industry.

         Best Practices for Streamlining Ordering Techniques

    •   Provide flexibility to vary the process to take into account:
            o The nature of the requirements
            o The size and complexity of the requirement
            o Time constraints
    •   Follow a uniform and consistent approach for soliciting, evaluating,
        negotiating and awarding all task orders (including templates for SOWs)
    •   Ensure that requirements are as specific and clearly defined as possible
    •   Promote performance-based work statements
    •   Use due diligence to afford contractors an opportunity to become
        knowledgeable about the requirements
    •   Keep RFQ submission requirements to the necessary minimum
    •   Provide timely guidance on deadlines so procurements can be planned
        appropriately
    •   Standardize requirements forms so that the submission of requirements
        data is complete (use clearly defined fields for data gathering). This will
        minimize the back-and-forth between the customer and contract units.
    •   Limit non-price factors to those few that are meaningful discriminators
        among competing offers
    •   Use oral proposals in lieu of or in addition to requesting written proposals
        when making a task order award
    •   Issue advance notice of the task order or draft SOWs
    •   Award task orders, when possible, based on initial technical and cost
        proposal submissions
    •   Provide a notice of the order with a clear statement of requirements
    •   Allow a reasonable response period
    •   Disclose significant evaluation factors and sub factors
    •   Where award is made on a best value basis, a statement documenting the
        basis for award and the relative importance of quality and price or cost
        factors
    •   If written technical proposals are required, use page limitations
    •   Make a reasonable number of awards, which ensures competition but
        keeps the ordering process from being overly burdensome
    •   Convene periodic meetings with awardees to discuss administrative
        matters, future requirements, and needed improvements in the ordering
        process.
    •   Conduct interim assessments to provide essential feedback to contractors
        on their performance. Interim assessments give contractors experiencing
        problems the opportunity to correct problems before they jeopardize
        contract completion.

                                            30
Information Technology’s Preferred                                                             CA-AR-09-007
 Portfolio Partnering Program



V.        Recommendations

Recommendation 1: Use competition as a basic tool, but permit an exception in
certain circumstances by observing the following best practices:

      •   Provide flexibility to vary the process to take into account:
             o The nature of the requirement
             o The size and complexity of the requirement
             o Time constraints

      •   Make a reasonable number of awards, which ensures competition but keeps the
          ordering process from being overly burdensome.

      •   Define limited circumstances for not competing task/delivery orders and clearly
          describe the exceptions in appropriate language in the solicitation.7

Recommendation 2: Enhance acquisition planning both at the program level and
at the individual task order level by observing the following best practices:

      •   Standardize requirements forms so that the submission of requirements data is
          complete (use clearly defined fields for data gathering). This will minimize the
          back-and-forth between the customer and contract units.

      •   Ensure that requirements are as specific and clearly defined as possible.

      •   Promote performance-based work statements and approaches.

      •   Provide timely guidance on deadlines so procurements can be planned
          appropriately.


7
    For example, several agencies provide the following language in the solicitation:

          Each Contractor under a multiple award contract shall be provided a fair opportunity to compete for
          each task order, unless an exception applies.

          Exceptions to Fair Opportunity

          Conditions for exception to the fair opportunity requirement for Task Order issuance under the
          ID/IQ contract include:
          (1) The agency need for the supplies or services is so urgent that providing a fair opportunity would
          result in unacceptable delays.
          (2) Only one awardee is capable of providing the supplies or services required at the level of quality
          required because the supplies or services ordered are unique or highly specialized.
          (3) The order must be issued on a sole-source basis in the interest of economy and efficiency because it
          is a logical follow-on to an order already issued under the contract, provided that all awardees were
          given a fair opportunity to be considered for the original order.
          (4) It is necessary to place an order to satisfy a minimum guarantee.


                                                      31
Information Technology’s Preferred                                              CA-AR-09-007
 Portfolio Partnering Program

As a standard operating practice, the Postal Service should develop a principal
acquisition plan for each multiple award quantity contract with an individual acquisition
plan for each major task order. The acquisition plans at the task order level can be of
more limited scope, covering the acquisition from purchase request or advance notice of
need through order placement. Although the Postal Service does not follow the FAR,
FAR Part 7 provides the elements of a standard acquisition plan that can be adapted for
the Postal Service’s needs. Acquisition plans for the basic multiple award contracts as
well as individual task orders should address the feasibility of using performance-based
acquisition (PBA) approaches.8

Recommendation 3: Foster communication between the agency and multiple
awardees by observing the following best practices:

     •   Use due diligence processes to afford contractors an opportunity to become
         knowledgeable about the requirements

     •   Convene periodic meetings with awardees to discuss administrative matters,
         future requirements, and needed improvements in the ordering process.

     •   Conduct interim assessments to provide essential feedback to contractors on
         their performance. Interim assessments give contractors experiencing problems
         the opportunity to correct problems before they jeopardize contract completion.

     •   Issue advance notice of the task order or draft SOWs to allow sufficient time to
         prepare for competitions.

Recommendation 4: Develop streamlined ordering guidelines and evaluation
processes that include use of the following best practices:

     •   Follow a uniform and consistent approach for soliciting, evaluating, negotiating
         and awarding all task orders (including templates for SOWs).

     •   Keep RFQ submission requirements to the necessary minimum.

     •   Use oral proposals in lieu of or in addition to requesting written proposals when
         making a task order award.

     •   Award task orders, when possible, based on initial technical and cost proposal
         submissions.

     •   If written technical proposals are required, use page limitations.
8
    Pursuant to FAR 37.601, performance-based contracts for services shall include:
             • a performance work statement (PWS)
             • measurable performance standards
             • method of assessing contractor performance against performance standards
             • performance incentives where appropriate

                                              32
Information Technology’s Preferred                                        CA-AR-09-007
 Portfolio Partnering Program



    •   Limit non-price factors to those few that are meaningful discriminators among
        competing offers.

    •   Allow a reasonable response period.

    •   Disclose all significant evaluation factors and sub factors.

    •   Where award is made on a best value basis, clearly document the basis for
        award and the relative importance of quality and price or cost factors.

The USPS should develop an ordering guide for the PPP program that describes each
of these best practices and includes appropriate templates and samples.




                                              33
Information Technology’s Preferred                         CA-AR-09-007
 Portfolio Partnering Program


                       APPENDIX D: MANAGEMENT’S COMMENTS




                                      34
Information Technology’s Preferred        CA-AR-09-007
 Portfolio Partnering Program




                                     35
